<html>
<title> - CONSIDERATION AND APPROVAL OF THE IMPLEMENTING REGULATIONS FOR A STUDENT LOAN REPAYMENT PROGRAM FOR THE HOUSE OF REPRESENTATIVES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
   CONSIDERATION AND APPROVAL OF THE IMPLEMENTING REGULATIONS FOR A 
    STUDENT LOAN REPAYMENT PROGRAM FOR THE HOUSE OF REPRESENTATIVES

=======================================================================

                            BUSINESS MEETING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

             Hearing Held in Washington, DC, July 17, 2002

                               __________


         Printed for the use of the Committee on Appropriations

                                 ______

84-511              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York
                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director


                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JULY 17, 2002

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Doolittle, Hoyer, and 
Fattah.
    Staff present: Channing Nuss, Deputy Staff Director; Fred 
Hay, Counsel; Jeff Janas, Professional Staff Member; Bill 
Cable, Minority Staff Director; Matt Pinkus, Minority 
Professional Staff Member; Nuku Ofori, Staff of Representative 
Fattah.
    The Chairman. Today the Committee on House Administration 
is conducting a business meeting to consider and approve 
Implementing Regulations for a Student Loan Repayment Program 
for the House of Representatives.
    I just want to open today by touching on some background 
which lays the foundation for why what we are doing here today 
is important for the House of Representatives institutionally, 
and for all who work and serve here. The Executive Branch, the 
U.S. Senate, and several other legislative branch entities such 
as the Library of Congress, the Government Printing Office, and 
the Congressional Budget Office have all enacted student loan 
repayment programs. So this is not a precedent-setting move 
today. This is why it has wide approval.
    The intent of the these programs is to provide an incentive 
to attract and retain qualified employees to government service 
who would otherwise work in the private sector. Because so many 
Federal employers offer this benefit, the House has been left 
at a competitive disadvantage in this regard, especially when 
other agencies have implemented this as well as those on the 
other side of the Capitol.
    As a result, at our insistence, language authorizing the 
program in the House of Representatives as well as the 
necessary funding for the program is included in the fiscal 
year 2003 Legislative Branch Appropriations bill. I want to 
thank, Mr. Hoyer, his staff, our staff, members of the 
committee, everybody that had input for pushing this issue into 
the appropriation process, and we just wanted to thank you for 
that involvement.
    Here at the committee we have worked hard in total 
cooperation with the minority in drafting the implementing 
regulations that we hopefully will adopt today. Upon the 
adoption of these regulations at this meeting, the Chief 
Administrative Officer, Jay Eagen, will put in place the 
administrative procedures and a standardized agreement for the 
program as directed by our regulations that we create here 
today.
    Upon committee approval of that process, an explanation of 
the program and details for participation will be disseminated 
House-wide by this committee on behalf of the entire committee. 
This committee has been fully engaged from the inception of 
this process, and will continue to be as we work actively to 
oversee and participate in the administration of this program, 
and also, obviously, help Members through the informational 
process.
    I just want to take a moment, and hopefully this will 
alleviate some questions some people have, but take a moment to 
explain the substantive parameters of the program. Any Member, 
Chairman, head of an employing office, or an employee of the 
House may enter into a written service agreement under which 
direct payments shall be made by the CAO, on behalf of the 
employee, to repay the employee's student loan indebtedness.
    Participation will be at the discretion of the Member, I 
want to stress, Chairman or employing authority. Payments will 
not be made from the MRA accounts, Members' accounts, but it 
will come out of an appropriation that has been set but from a 
separately capitalized account administered by the CAO, Jay 
Eagen. The length of the agreement will be for 1 year with the 
option of additional 1-year agreements.
    With each agreement the employing office is agreeing to 
make 12 monthly payments toward an employee's student loan debt 
in exchange for 1 year, which is pretty simple.
    Termination of the agreement occurs when the employee's 
full time employment terminates, upon no payment by the CAO 
because of a lack of funds available, or upon mutual agreement 
of the parties. Exceptions may be made by the employing office 
for illness, bereavement, or furlough not for cause.
    The employee must reimburse for all payments made under the 
agreement if they are terminated for cause or leave their 
employment voluntarily during the period of agreement. The 
employing office may waive the reimbursement requirement.
    There will be no payment for loans in default. An employee 
is not relieved from liability for payment of their loan. An 
employee has no right to continued employment or entitlement. 
Payments are not applied as earnings for benefit purposes, but 
shall be subject to withholding for income and employment tax 
obligations.
    Individual limitations on the amount of payment will be 
$500 in any one month, and $40,000 for all of the months. 
Student loan payment and compensation together may not exceed 
the Speaker's Pay Order, which is standard practice here in the 
House. Specific payment amounts are determined by the employing 
office. So you can vary them, 5, 4, 300, whatever you want to 
negotiate out.
    The amount of funds available for the program will be, for 
a Member's personal office, 2 percent of the average of your 
MRA, or approximately $20,000 annually. So when you start 
putting this together, you can have four people at $500 or you 
can have five people at $400, any combination depending on the 
needs of the individual.
    In the case of any other employing office, the amount will 
be 2 percent made available to that office for salaries and 
expenses. Assuming full funding participation, this program 
could cost around, in the fiscal year 2003, about $14.6 
million.
    Substantively, this program does not differ from the 
parameters in place for the Senate. Administrative differences 
do exist between the two programs to reflect institutional 
differences between the two Chambers.
    And with that, I wanted to again go ahead to take the time, 
I wanted to lay out basic guidelines for this. I do want to 
thank Mr. Hoyer and members of this committee, Mr. Hoyer and 
his staff, our staff, Jay Eagen and his team, as well as the 
Office of House Employment Counsel who have all provided 
valuable input into the process.
    I am going to close by saying I am convinced this program 
will provide Members and other employing authorities in the 
House of Representatives with an effective incentive at their 
disposal for the recruitment of highly qualified candidates for 
employment. In doing so, I believe we are strengthening the 
institution.
    And I just point out in closing we would be basically the 
only entity practically around this city that would not in fact 
have this, and I think it could make a difference when we are 
looking for good qualified staff to serve the constituents, 
committees, personal offices and do good things back home. So I 
think this just levels the playing field for us, and I think it 
is a great incentive. I think it is good for the sake of the 
House.
    With that, I will lay before the committee the Committee 
Resolution on approving the Implementing Regulations for a 
Student Loan Repayment Program for the House of 
Representatives.
    Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, thank you very much. As it always 
is, it is a pleasure to work with you and staff. Our staffs 
worked together very cooperatively on this, and I thank you for 
moving these regulations so quickly. With the legislative 
appropriations bill that was passed, as you know, it may be on 
the floor tomorrow.
    As we have designed this program, it will serve the House 
by giving Members' offices and committees, as you have 
explained, a valuable tool which with to recruit qualified 
employees and to retain employees.
    The House program will follow the form of programs in the 
Senate and other legislative agencies and the Executive Branch. 
As in those other agencies, in return for the loan repayment 
they will have to agree in writing to remain in their 
employment for a specified time, 1 year. If they fail to do so, 
they will have to repay the House. This procedure is one which 
is replicated in many other places.
    When Congress established the authority for the program 
over a decade ago, it took pains to advise agencies the program 
is to be used sparingly, only as needed to recruit and retain 
qualified persons. I would hope it would be used sparingly in 
the House as well to preserve its effectiveness as a 
recruitment and retention tool.
    The necessary steps toward authorization and funding for 
this program, as you have said, are in the pending Legislative 
Appropriation bill. Our action today will expedite 
establishment of the program by the CAO and permit us to have 
this program in place at the earliest possible date.
    Mr. Chairman, as always, I appreciate the opportunity to 
work with you, and as usual, it has been in a bipartisan, 
constructive fashion. And I did also want to continue to thank 
the staff which has worked very cooperatively and openly with 
my staff.
    I also want to acknowledge the constructive role played by 
Representative Barbara Lee. I know she has talked to you, Mr. 
Chairman. She talked to me. Last year, Barbara introduced a 
bill to extend this program in the House. She recognized the 
value of the program and worked tirelessly to promote it, help 
us to reach this point. It is my pleasure to work with her, and 
I urge the members of the committee to adopt the resolution.
    The Chairman. Mr. Ehlers.
    Mr. Ehlers. Just a question on the implementation of the 
legislation. The previous speaker, the gentleman from Maryland, 
mentioned that this is already in the Leg Branch Appropriations 
bill. Is that authorization going to be permanent, or does it 
require additional authorizations for this committee for 
succeeding years?
    The Chairman. Well, this will be permanent. The funding 
would have to be renewed in order to practically implement the 
program.
    Mr. Ehlers. I wonder about the authorizing legislation. It 
would have been nice to have kept that, to bring that to the 
floor of this committee, and, you know, it would have been on 
suspension, and to retain clear authority here in the 
committee.
    I yield back.
    Mr. Hoyer. If the gentleman will yield. Of course I have 
the dual capacity of serving on the Legislative Appropriations 
Committee as well as this. But, frankly, I am going to assure 
the ranking member on the Republican side that the committee, 
Mr. Taylor, was very interested that this committee was in fact 
in favor of it. I know he talked to our chairman, and 
obviously, I brought it to the attention in my discussion with 
the chairman to the committee that this was a program supported 
by our committee.
    So they were very concerned about the jurisdiction of this 
committee.
    Mr. Ehlers. If the gentleman will yield, I certainly 
understand that. But as someone who is a member of the only 
authorizing committee, there is always that--we have the 
authorizing, you should do the authorizing. And we recognize 
your perfect right and necessity to do it when you have to.
    But I am just saying it would have been nice as we were on 
record as having authorized it as the committee rather than 
rubber stamping what you have done. It is a minor point.
    The Chairman. Let me just jump in here for a second, and 
this applies to my part, not to Mr. Hoyer. Working with some of 
the people over there and particular staffers on Appropriations 
is like walking on a razor. Originally I had no problems to do 
a resolution. They opted not to do a resolution, maybe a signal 
to do this, this is directed toward my party.
    Finally, I got to the point where, you know, you don't do 
games with a good part of our people. And I agree. And the 
resolution was good. I thought, well, we get it. We do sign off 
on this. So this is kind of a unique way for someone on our 
side of the aisle to get their signals straight. And I do 
agree. I am sensitive to stepping on toes, which they have done 
about 13 times on this particular piece of legislation trying 
to work it out this week. There are a wide variety of ways that 
we can work it out, and I promise you that we will one way or 
another.
    So I am sensitive to this. This is the way we did it just 
to get it for the benefit of our good staff.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. I was intrigued by the 
minutia of the legislative process, but I did have one 
question. And I would first like to add my voice to both the 
chairman and the ranking member's comments at this time. This 
work is one of the most significant things that we have done 
around here in a very long time.
    But there is one point that I just wanted to ask. I know 
that in the Capitol Police program, it is up to $10,000 and 
this would be something less than that. But I assumed that ours 
with $500 a month is on par with the Senate?
    The Chairman. Exactly. It is on par with the Senate.
    Mr. Fattah. Okay. Thank you, Mr. Chairman.
    The Chairman. The Capitol Police now, that would be a 
tuition reimbursement program if the force put it into their 
work. So they actually can choose.
    Mr. Fattah. That is up to a thousand dollars. But I 
understand the differential and am not unsupportive of it.
    The Chairman. Mr. Doolittle.
    Mr. Doolittle. Mr. Chairman, I congratulate you. I join 
with my colleague on the other side of the aisle here to lend 
my approval.
    The Chairman. The Chair recognizes Mr. Ehlers for the 
purpose of a motion.
    Mr. Ehlers. Mr. Chairman, I move that the committee 
resolution approving the Implementing Regulations for Student 
Loan Repayment for the House of Representatives be adopted.
    The Chairman. The question is on the motion. Those in favor 
say aye. Opposed nay. The ayes have it. The ayes have it. The 
motion is agreed to, and the committee resolution is adopted.
    I ask unanimous consent that members have 7 legislative 
days to submit material into the record, and for materials 
submitted to be entered into the appropriate place in the 
record. Without objection, the material will be so entered.
    Motion for technical and conforming changes: I ask 
unanimous consent that staff be authorized to make technical 
and conforming changes on all matters considered by the 
committee at today's meeting.
    Without objection, so ordered. And having completed our 
business for the day----
    Mr. Ehlers. Mr. Chairman, I want to raise an issue that 
continues to trouble me. Recently, we had a meeting with 
representatives from the CAO's office and the Post Office about 
the mail situation, to which I was unfortunately not able to be 
present. I was in a markup with the other committee, but I got 
a full report from my staff members. The Post Office assured us 
there was no mail held back, et cetera. Within a week I 
received a Christmas card which had been mailed in December.
    I have been very patient with it, but this week I got a 
first class letter. It was mailed on May 24th. It was important 
business. I should have received it. The party sending it, not 
being familiar with the problems, had failed to fax me 
something. I received that letter which was mailed May 24th, I 
received it 2 days or 3 days ago.
    Also in the same mail was a letter from June 13th. 
Obviously we still are having problems, and I cannot understand 
how the greatest parliamentary entity in the world is expected 
to function when we cannot get our mail. It is simply 
unacceptable. I don't know what has to be done. I don't even 
know where the problem is. But clearly there are difficulties 
here.
    Incidentally, I even got a Priority Mail letter some 3 
weeks ago now that had been mailed in March. Priority Mail. It 
took me several months to get it. I would seek your advice, Mr. 
Chairman, and the ranking member as well. What are we going to 
do about this? There has to be an answer.
    The Chairman. Let me just say this is an issue where I have 
literally got headaches from working on this for hours and 
hours. I got a piece of mail sent to me 2 weeks ago, and about 
a week before that the same thing. One of them was from 
January, and one from March. I have come to the conclusion that 
if we keep our current system, that no matter what we do, if we 
have five irradiation machines outside this building going 
full-time, that this is not addressing the issue of lost mail. 
If they are going full time, we are going to get it in 13 days.
    We are looking at a digital pilot program. I have been 
getting letters from members saying you are not going to open 
my mail. Well, we are not going to force anybody to do this 
pilot program. If it is successful and members want to do it, 
they can do it. If they would like to have 13 more days to open 
their mail, that is the way that it is going to be. There are 
some bugs to work out on that. So I don't have an answer. 
Except on the backlog we are told we are somewhere close. By 
bar coding, it was sent to another place. They are fully now 
coming back. I have come to the conclusion that it has been 
somewhere and it is being found. That is the only answer.
    I don't know if anybody else has experienced it the last 2 
weeks, but I have experienced it. So we have met with the 
postal authorities. So I am hoping that old mail somehow is 
still flowing in. I have come to the conclusion that the 
current way that we are doing it is the best thing that we can 
do. Jay Eagen has no choice. The system completely went away, 
evaporated because a result of the anthrax. But I don't know 
what we to do. I think that is a shame. That is why I have 
pushed for this pilot.
    Now, there is a lot of misunderstanding, and all of the 
staff comments I have read in Roll Call were I can't have it 
printed. But they can push the button, it prints out in their 
office. So there is a lot of misunderstanding, but right now 
that is the only way.
    Mr. Ehlers. But, Mr. Chairman, if I may. That still 
wouldn't get Ted Stevens' smoked salmon here on time. It is 
hard to send that digitally. And there is a lot of things we 
get Priority Mail.
    The Chairman. We can do a virtual salmon tour.
    Mr. Ehlers. But the Priority Mail was a small envelope that 
contained a tie from someone, and they had sent it months ago. 
But I am sure they were wondering why in the world they didn't 
get a thank you note from me until 4 months later when I 
explained what happened. The point is I am frankly--I am not 
faulting the House because I think the House is proceeding 
well. There is something wrong with the U.S. Postal system in 
the way that they are handling this problem. I don't know what 
it is. I am not sure that they know. Whether they periodically 
are uncovering trailers, oh, that is right, we had this here, 
or finding bags of mail in the Brentwood Post Office, or what 
have you.
    But I know in our office, our e-mail is way up, but our 
U.S. Mail from constituents is way down, I would say almost a 
factor of 10 to what we normally do. Does the public know that 
we have this problem and they are clearly not writing us, or 
are there letters not getting got us? We have no way of 
knowing.
    My advice to every one back home is if you want to send us 
a letter, send to it our district office. Don't bother with 
Washington. Then the district office sends it here, not to this 
building but to our employees at home so that they can bring it 
in. That is the only way that we have been able to get a rapid 
response.
    The Chairman. A couple of our staff has done it. We look 
throughout the buildings. I have come to the conclusion that 
Pitney-Bowes is putting out every piece of mail that they get. 
That mail comes in, they get it out. But basically staff told 
me while they were in there, it was cleared out and then 
another trailer comes in of mail. They were looking through the 
mail and it is 3 months old
    So our people are getting it out if it is getting out of 
them. Again, I don't know if they discover, you know, a 
trainload of this, whatever it is. We will go until we get it.
    Mr. Hoyer. Mr. Chairman, I don't know whether we have done 
this. But it might be useful if we would send out to the 
Members a request for examples, such as Mr. Ehlers gave here 
today, in preparation for another hearing similar to the one we 
had as to where we are. And we may not do that until--it may be 
late September or something to find out where we are before we 
leave here for the October recess.
    I am fearful to say I don't think we are gong to get to 
adjournment in October, unfortunately. But so that we would 
have examples from Members of the kinds of things you are 
talking about, Mr. Ehlers, and then we would know that we would 
continue to follow this and monitor and be concerned about it, 
and then it would be material that we could use when we follow 
up with that.
    The Chairman. If there is no further business, the 
committee is adjourned. Thank you.
    [Where upon, at 10:30 a.m., the committee was adjourned.]


</pre></body></html>
